       .,   "\'

 Department of Health and Human Servces

         OFFICE OF

    INSPECTOR GENERAL





EDUCATING PHYSICIANS RESPONSIBLE

 FOR POOR MEDICAL CARE: A REVIEW

OF THE PEER REVIEW ORGANIZATIONS'

             EFFORTS





            .. SERVI('
                         .. . U:



                                   Richard P. Kusserow
                                   INSPECfOR GENERA

              cf:fa                    OEI-Ol-8-00
                                                                                . . . . . . . . . . . . . . . . . . . . .. .... ..... .. .....
                                                                                                                            . .. .. .. .. ..
                                . .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .. .
                                                                                                                            ;              . ... ... .... .. . ..
                                                                                                                                                               . . . ..




                           TABL.                           OF CONTENTS


EXECUTIVE SUMY
INODUCTION. .
FININGS              ...................................................... 3


RECOMMNDATIONS

COMMNTS ON TH DRA REPORT
APPENDIX A
   Methodological Notes

APPENDIX B
          Sample Overvew.                                                                                                              . . . . . . . .. B­
APPENDIX C
   Summary of Physician Profie Data. . . . . . . . . . . . . . . . . . i . . . . . . . . . . . .. C­

APPENDIX D
          Generic Quality Screens. . . . . . . . . . . . . . . . . . . . . . . . . . . . . .' . . . .' . D­

APPENDIX E
   Summary of Intervention Profie Data . . . . . . . . . . . . . . . . . . . . . . . . . . . .. E­

APPENDIX F
   Detailed Comment . on the Draft Report
    and OIG Response to the Comments. . . . . . . . . . . . . . . . . . . . . . . . . . . ..                                                                      F­

APPENDIX G
   Endnotes. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . G­
                              EXECUTIVE SUMMAR
 PUROSE
 In this study, we assess me educational interventions that the Medicare-funded Peer
 Review Organizations (PROs) direct ' to physicians responsible for serious quality-of­
 care problems.

 BACKGROUN
A major objective of the PROs is to oversee the quality of care rendered to Medicare
beneficiaries. In carrg out this objective, they have two major functions: (1)
 identif and confirm physicians and/or  health care entities responsible for quality-of­
 care problems, and (2) to direct follow-up actions to the responsible parties.

In this report , we address the latter function. We examine educational interventions
because the PROs rely heavily on them as corrective actions, and we focus on the
most severe problems (those the PROs assign a Level III) because the PROs
determined that those problems involved adverse effects on patients. For a sample of
eight PROs , Vfe reviewed all such problems confirmed between January 1 and June 30
1990. We present our fidings around four                                    key questions concerning the 131
physicians identifed in our sample.

FIINGS
Who were the physician identied                              by the        PROs as being responsible for serious
quaty-of-ce problems?
 Twen-eght peen of th                               were in genl
                                              physiwere                                     practie, 60       peen were betwee
45         an     64    yea o     and    98   peen      ma.                    In th                  State in whih the physins
practied                17
                             peen of    aO physin.fwere in                  genl            practe,
                                                                                                             peen
                                                                                                            32       betwee  and
                                                                                                                              45


64          an     83    peen ma
           le th
id
At                          peen of th
                        by the PROs.
                                              131
                                                     physins ha more thn one                                 quli-of-care proble

What kids of problems were they' responsible for?
Eight peen of th                 physi     were resnsle for      care resg in serus or ei             (1)


potell                   serus compliatins        abnorml dign figs le unesed
                                                    , or     (2)

 (3) both

What kids of educational interventions did the PROs diec to thes physician?
 Th             PROs diecte no          edatinal           inerentins to          14
                                                                                             peent of the physins.
Amng th physi who di receie an             edatina inenn, th PROs            used lett
call coures, and metigs mo oft

       Fort-two percent received a letter.
       Thirt percent    received a telephone call.

       Twenty- two percent had to attend a continuing medical education course.

       Eighteen percent had to attend a meeting with PRO physicians.

Hosls tyal          were not involved   wi or aware of the inenns.
       Fif-one percent of the hospitals were not inormed that a quality-of-care
       problem had occurred there.

       Eighty-eight percent of the hospitals where the quality-of-care problems
       occurred ha    no part in the educational intervention.


What conclusions ca we drw from the PROs' educational interventions?

Th   edatinql valu of     th inentins is unerin
       The letters are tyically brief and contain more case summary than educational

       material.


       The calls are not documented enough to determne their content.


       The available courses often do not address the specific quality-of-care problems

       the PROs have identifed. 

       The meetings with the PRO physicians have the most educational value
       according to both the PROs and the relevant literature , but were used in only
       18 percent of the cases we reviewed.

Th   PROs confrnt thee bas constrin in seekig        to carr out efectie   edatinal
inenns.
       They have limited information on which to base their educational interventions.

       They perform oversight roles that inhibit their capacity as educators.

       They find that remedial medical education programs are seldom available.
REMMATIONS
The Health Care Financing Administration (HCF A) should ensure that the PROs
initiate timely educational interventions in all confirmed Level III cases.

The HCF A should issue a regulation or, if necessary, seek legislation mandating that
for all confirmed Level III cases , the PRO share case information with the hospitals at
which the problems occurred. That information should include the identity of the
physician , the nature of the problem, and the tye of educational and other
interventions imposed by the PRO.

The HCF A should issue a regulation or, if necessary, seek legislation allowig   and
encouragig the PROs to involve the hospitals in the planning, conduct , and
assessment of educational interventions in all Level III cases.

The HCF A should instruct the PROs to give greater attention to personal meetings as
an educational intervention and to explore ways of conducting one- to-one meetings
between physicians with confirmed Level III quality-of-care problems and physician
consultants.

The HCF A should mandate that before directing an educational intervention to a
physician in a level III case , the PROs take into account all prior quality-of-care
problems they have identified concerning the physician during the life of the PRO
contract.

The HCF A should obtain and disseminate information on the effectiveness of PRO
educational interventions.

The HCF A should obtain and distribute to all the PROs the listing of
focused/remedial education programs included in the national registry maintained by
the American Medical Association.

The Public Health Servce , through the Area Health Education Centers Program
and/or the Agency for Health Care Policy and Research , should provide
demonstration funding for the establishment and refinement of medical education
programs that seek to enhance the clinical competence of physicians through
individualized assessments and remedial education.

COMMNT
Within the Department of Health and Human Servces , we received comments from
HCF A and PHS. The HCF A agreed with the fist recommendation , indicated that it
would seek legal guidance concerning the second and third, offered to consider the
fourth, suggested that the PROs ' fourth scope of work addresses the fifth , and
commented on more generalized education efforts concerning the sixh.
In response to HCF A' s comments, we changed the second and third recommendations
so that they call for HCF A to issue a regulation or, if necessary, introduce legislation
to further PRO- hospital interaction in Level III cases. We also amended
the recommendation urgig PROs to take into account al prior quality-of-care
problems before makig     an educational   intervention. In that   recommendation, we
specified that we were referrng to Level III cases and to problems identified by the
PRO durig the life of its contract with HCFA
The PHS , in relation to the comment we directed to it, suggested that the Area
Health Education Centers (AHC) Program might be a more appropriate vehicle for
funding demonstrations than the Agency for Health Care Policy and Research.
Accordingly, we added the AHC program to our recommendation.

Outside the Department, we received comments , generally supportive , from the
American Association of Retired Persons (AAP), the American Medical Peer
Review Association (AMRA),       and the American Medical Association (AM).
response, we made some minor clarifyng changes in recommendations and added a
new recommendation callng for HCFA to keep the PROs informed of
focused/remedial education programs included in the national registry of such
programs maintained by the AM.
                         INTRODUCTION
PURSE
The purpose of this study is to assess the educational interventions that the Medicare-
funded Peer Review Organitions (PROs) direct to physicians responsible for serious
quality-of-care problems. Toward tha end , we address four basic questions:

1. Who were the physicians identified by the PROs as being responsible for serious
   quality-of-care problems?

2. What kids of problems were they responsible for?

3. What kids of educational interventions did the PROs direct to tnese physicians?

4. What   conclusions can we draw from the PROs ' educational interventions?

MEODOLOY
Our methodology is based on a stratifed random sample of eight PROs (appendix A),
for which we reviewed all confirmed Level III quality-of-care problems involving
physicians identifed between January 1 and June 30, 1990. The Health Care
Financing Administration (HCFA) defines such problems , which involved 131
physicians , as involving "medical mismanagement with significant adverse effects on the
patient. We supplemented our review by conducting discussions with admistrators
and physicians associated with the eight PROs.

BACKGROUN
When the PROs were established in, 1982, their mission was almost completely focused
on controllng Medicare costs. Today their mission is much broader and includes
major responsibilty for overseeing the quality of care rendered to Medicare
beneficiaries. The PROs carr out this responsibilty by reviewig inpatient medical
records against standards of established professional practice.   These reviews
constitute about 15 percent of all Medicare admissions to hospitals.

When the PROs identify what appears to be a quality-of-care problem , they conduct a
second and sometimes third review. If at this point the PRO physician reviewers
agree that a likely problem exists , the PROs invite the physicians and/or hospitals
involved to provide more information. Upon further review, the PROs either confirm
the problem or overturn their previous findings.
As a part of this process, the PROs determine the degree of harm done the patient
and, in accord with HCF A instructions , assign a severity level and weight value.
Incidents involving no potential for harm are assigned a Severity Level I, with a weight
of 1; those with a potential for harm are Level II, with a weight of 5; and those with
actual harm are Level III, with a weight of 25. HCF A defies harm, or adverse
effects , as prolonged treatment, readmission, impairment , disabilty, or death. Durig
our sample time frame , the 53 PROs completed 1, 055, 964 reviews and identifed 9 620
confed quality-of-care problems: 4 217 Level I, 4, 711 Level II, and 692 Level III.
At the end of each quarter, the PROs, in accord with HCF A' s profilig requirements
must total the weighted severity score    for each physician they have identifed as   havig
                                      l The interventions the PROs then take are
one or more.quality-of-care problems.
                   2 For physicians responsible for a Level III problem, HCFA
based on this score.
requires that the PROs invoke an educational intervention , conduct an intensifed
review of subsequent hospital admissions ,consider sharing the information with the
medical licensure board , and consider recommending a sanction to the Offce of
Inspector General (OIG). 3 In addition , HCFA requires the PROs to notif the
physicians of the   confired quality-of-care problem in wrting and to take an
additional intervention ,   such as requiring predischarge or preadmission approval.

The educational interventions , which are the focus of this report , involve a range of
possible actions. For example , they may involve coursework, suggested medical
readings , or discussions with PRO physician advisors. These interventions may be
taken singly or in any combination. The HCFA allows the PROs to determine the
most appropriate tye of      educational intervention for each physician.


Overall , these educational interventions are a vital component of the PROs ' quality
assurance efforts. The HCF A mandates them for Le:vel III problems and for Level II
problems with a score of 10 or more. And they far outnumber the more punitive
interventions involving referrals to the medical licensure boards and the OIG. Yet
little is known about the use or effectiveness of the educational interventions the
PROs undertake.
                                                       INDINGS

Who were the physici                      identied by the         PROs as being responsible for serious
quaty-of-ce problems?
Twen-egh peen of th physi                      gen prctie, 60 peen were betwee
                                                           were in
45    an    64    yea o~ an
                                 peen were male
                                         98            State in whih the physins
                                                                        In th


prct              17
                       peen of physins
                              aU       were in gen            peen              prctie,      32           betwee   45

64,    an    83    peen ma
We identifed the specialties4 for all but one of the 131 physicians in our sample.
These 130 physicians represented 22 specialties which we grouped into four tyes:
general practice, medical specialties, surgical specialties, and osteopathy (appendix C).
In comparing their distribution among the four tyes with that of the non-Federals
physicians in their States , we found more physicians responsible for serious quality-of­
care problems to be in general practice and less to be in medical specialties than
would be the case if their distribution mirrored that of the 8 States (figure 1). The
difference was statistically signficant.

                                                           FIGUR
                                          PHYSICIAS WIH SERIOUS QUALY-OF-CARE

                                                 PROBLEMS AND ALL PHYSICIANS IN 

                                                       STATES, BY SPECIALTY

                         Percent
                  50%

                                                     40%
                  40%


                  30%


                  20%


                   10%



                              General Practice    Medical Specialtes' Sureical Specialties        Osteopathy
                                                              Specialty
                                        Physicians, 8 States               Phys. w/QOC Problems


NOTE: N=79 581 non-Fedeal paJ-care physiia in        Sta an N=130 physiia        by       idfid
                                                                                    PROs as resnsible for a

confi Lel III qu-of-care proble an repned to HCFA for revs compled 1/1190-6/30190.

SOURCE: OIG/OEI ansi of do frm          PROs; Amca Medial              Asil
                                                                      Divin of Sur an Da Resources
Medial Directorv: Physiia in th Unid Sta. 32 ed. (1990) an Physiia Chaacte an Disutn (1990); 

                                                                                                                    A.an

Amean Osteopath Asocian,      Yearbook an Directorv of Osovath Physiia (1990).

We also compared the gender and age distribution of the physicians responsible for
serious quality-of-care problems with the non- Federal physicians in their States.
found a smaller proportion of female physicians than in the 8 States (2 percent
compared with 17 percent), and we found fewer physicians either younger than 35 or
older than 65 and more between 45 and 64 than in those States (figure 2). These
differences in distribution were statistically signcant , too.

                                                                   FIGURE 2
                                             PHYSICIAS 1rH SERIOUS QUAL-OF-CARE

                                                          PROBLEMS AND ALL PHYICIAS

                                                                 IN 8 STATES. BY AGE


                      Percent
               40%

               35%                                                             32%
               30%

               25%           24%

               20%

                15%

                10%




                              .. 35                      35-44            45-54              55-64        65+
                                                                   Age Category
                                       Physicians. 8 States                          Phys. "./QOC Problems


                    Fedeal phyia     State an N=130 phyia idfid             PROs as resnsle for confi
NOTE: N=124 163
Leel III
SOURCE: OIG/OEI
                      Irn-


                      tI
           quf-car proble an rert to HCFA for
                               of do   from
                                                in


                                                    PROs
                                                                re
                                                    compled 1/1190-6/30190.
                                                             Anan Medal Asian, Divin
                                                                            of Surey an Dat
                                                                                                 by


                                                                                                  Aman          Resources

Medial Dictory:   Physiia in th United State 32                etL (1990) an   Phyia Chaacter an Disutn (1990); Marqu
mw:s   mw,   Dirctory of Medal Speiais              24   ed. (1990); an  Ame      Osteopat Asocian,   Yearbok an   Diectory of
Ostopath Phyia (1990).

Finally, we compared the foreign medical graduate (FMG) distribution among these
physicians and the non-Federal physicians in their States. s Thirty percent (35) of the
physicians responsible for serious quality-of-care problems were FMGs , which reflects
the proportion of FMGs in those States.


id
At let th peen of
               by th PROs.
                                        th    131
                                                          physi ha more thn one quli-of-care proble
We asked staff at each PRO if they had identified any quality-of-care problems for
these physicians prior to our sample time frame. Although the information was not
always available , the PROs were able to identify 20 physicians (15 percent) who had
confirmed quality-of-care problems prior to our sample time. Those problems

included Levels I, II , and III, and in one case, the PRO was recommending sanction.
The PROs identified another 20 physicians (15 percent) who were responsible for
additional9 quality-of-care problems during the sample time or identifed in intensifed
review.

What kids of problems were they responsible for?
Eight peen of th            physi wer resnsle for     care resg in serus or
                                                                  ei      (1)


pote       serus compliatins or         abnorm dign figs le unesed
                                          (2)


(3) both

Fort percent (52) of these physicians                             in serious or
                                                provided care that resulted
potentially serious complications. to For example, one problem involved an attempt
to repair a patient' s broken femur with a rod implant. The rod implant split the bone
therefore requirig a wie wrap. The wie wrapped the artery and nerve instead of
just the bone. Despite the patient' s symptoms of vascular impairment, corrective
surgery was delayed and the patient died of sepsis.

Twenty- three percent (30) of these physicians provided care that left abnormal
diagnostic findings unaddressed. One such problem involved a patient suffering a low-
grade fever for three days prior to discharge and whose white blood cell count was
high , indicating infection , on the day of discharge. Eight days later the patient was
readmitted because of the infection.

 Seventeen percent (22) of these physicians provided care that failed both screens. For
 example , one problem involved a surgeon s premature discharge of a patient after a
'below- the-knee amputation. The stump was open and draing at the time of
 discharge and the patient was readmitted with an infected and painl stump. The
surgeon performed a debridement and closure , but they were ineffective , and the leg
was fially amputated above-the- knee.   The PRO noted that the patient' s complicated
postoperative period was a result of the inappropriate below-the-knee amputation.

The remaing 20 percent            of the physicians   were responsible for various other
problems such as medication errors and nosocomial infections.

What kids of educational interventions did the PROs diec to these physician?
Th   PROs diected no edatinal            inenns         to   14
                                                                       peen of th physi.
The PROs ' response to the 131 physicians responsible for serious quality-of-care
problems was multi- faceted (appendix E). They sent notifcations and conducted
intensified reviews on the hospital admissions of all the physicians.u They also took
various other interventions , ranging from predischarge screening to preoperative
consultation, against 44 percent of the physicians. And we saw documentation that
they considered referrg 53 percent of the physicians to the OIG for sanctioning and
39 percent to the State licensure boards. These considerations , however, led to few
actual referrals , with only two to the OIG and three                  to the boards.
                                   ;:;:;   ;:;:;   ;:; ;:;:; ;:;:;:;:;:;:;:;:;   ;:;:; ;::     ;:                 ;:;:;:;:;:;   ;:::::;   ;:;:;:;   ..
                                                                                                                                                    ;:;:;     ;:::;     :::::::




For the educational interventions, which provide the focus of this study, it is strikig
that the PROs directed no such interventions to 14 percent (18) of the 131 physicians
found to be responsible for serious quality-of-care problems (figure 3). Ths omission
occurred despite HCF A' s requirement that an educational intervention be directed to
each such physician. Like the others, these 18 physicians each received the
notifcation of a confrmed quality-of-care problem from the PRO , and each was
subject to intensified review (appendix E).

                                                                                       FIGURE 3

                                             NUER OF EDUCATIONAL INVEONS
                                                                 PROs IMSED PER PHYSICI




                                ;:;:;:;:;:;:;:;:;:;:;:;:;:;:;:;:;:;:;:;:;:;:;:;:;:;:;:;:;:;:;:;:;:;:;TWiJ:;:;:;:;:;:;:;:;:;:;:;:;:;:;:;:;:;:;:;:;:;:;:;:;:;:;:;:;:;:;:;:;:;:;:;:;




                                                                                                    None




NOTE: N=131 physiia idfied by                                 PROs as resnsible for                  Q   confi Lel III Il                                                 b/e an reponed to
HCFA for revs completed 11/90-6130/90.
SOURCE: OIGIOEI ansi of da from        PROs


These 18 physicians involved 5 of the 8 PROs in our sample. For eight of the
physicians , the PROs ' records offef( d no documentation on why the educational
interventions were not made. For seven of them , al involvig one PRO , the PRO
deferred the interventions for many months so that it could undertake retrospective
medical reviews to ascertain whether the quality-of-care problems were isolated or
part of a pattern.

                   12 The PROs did not pursue an educational intervention for two
physicians because they were recommending sanctions 13 and for one such an
intervention was unnecessary because the physician retired.

Amng th physins who di receie an                                                              edatinal inenn,                                                 the PROs used lett
call coures and metigs mo oft

            Fort- two percent received a letter.
            Thirt percent                     received a telephone call.
              Twenty- two percent had to attend a continuing medical education course.

              Eighteen percent had to attend a meeting with PRO physicians.

The PROs used these four educational interventions alone and in combinations.
Physicians responsible for serious quality-of-care problems usually received one
educational intervention (figure 3), and that intervention most often was a letter.           The
most common combination was a letter and a phone call, usually from the medical
director or, in some cases , a physician adviser or a quality assurance committee
member.

The PROs required about one of every five physicians responsible for a serious
quality-of-care problem to attend a continuing medica education (CME) course. The
CME requirement ranged from as few as 12 hours to as many as 50. In every case
the PRO approved the course syllabus and required proof of attendance.

The meetings imposed as an educational intervention usually involved the physician
attending a regularly scheduled meeting of the quality assurance commttee at the
PRO to discuss the quality-of-care problem. The PRO medical director, peer
physicians , and nurse reviewers usually staff these committees.

The PROs ' inventory of educational interventions contains more than the four noted
above. For example , the PROs occasionally suggested medical readings and , in one
case , required the physician           to attend a refresher residency.


Hosit           typicall were not involved     wi or aware of the inenns.
              Fift-one percent of the hospitals were not informed that a quality-of-care
              problem had occurred there.

              Eighty-eight percent of the hospitals where the quality-of-care problems
              occurred had no part in the educational intervention.

According to HCF A policy, the PROs 
             may release physician-specific inormation   about
confrmed quality-of-care problems to hospitals where the problem occurred without a
request and  must release it upon the hospital's request. Thee of the eight sample
PROs routinely inform hospitals that a physician has been notified of a confrmed
problem. The others have informed the hospital in only a few cases , citing both
confdentiality concerns and HCF A' s policy as reasons.

Usually, the PROs that inform the hospitals do so by sending a copy of the physician
notice to the hospital's quality assurance committee , relevant department chair, and/or
designated liaison. The PRO would not necessarily know if the hospital took any
action upon receiving the notice , or if the hospital already knew about the problem.
One PRO not only informed hospitals of problems , but also involved them in the
educational interventions. In fact , this particular PRO was responsible for 23 of the 25
cases in which the hospital was involved in the educational interventions. The
involvement usually included a discussion of the quality problem between a hospital
physician (for example , the chair of the quality assurance committee or relevant
department) and the physician responsible for the problem. In some cases , they
discussed the problem during grand rounds or a morbidity and mortality committee
meeting.

For 6 of the 131   quality-of-care problems , the PROs ' interventions resulted in changes
in hospital policies or protocols that could prevent other quality-of-care problems. For
example , one problem involved the delayed treatment of an elderly patient' s severe
pulmonary edema resulting in the patient s death. The PRO determned that both the
attending physician and the surgical resident were responsible for the problem. The
PRO notifed the hospital of the problem, required both physicians to attend the
PRO' s quality assurance meeting, and issued a first sanction notice for one physician.
In addition , the PRO prompted the hospital's implementation of new policies for
geriatric consultations and resident training in geriatric medicine.

What conclusions ca we drw from the PROs' educational interventions?

Th     edatinal valu of the      inenns is unerin
            The letters are tyically brief and contain more case summary than educational
            material.

            The calls are not documented enough to determine their content.

            The available courses often do not address the specific quality-of-care problems
            the PROs have identifed.

            The meetings with the PRO physicians have the most educational value
            according to both the PROs and the relevant literature , but were used in only
            18 percent of the cases we reviewed.

None of the eight sample PROs had formally assessed the effectiveness of their
educational interventions. 14 Some representatives of the PROs , however, indicated
that these interventions were important not only for the physicians involved but for
other physicians in the State. In      this context , they sometimes referred to a sentinel
effect , whereby physicians change their practice because of the expectations and
oversight activities of the PROs.

                   Medicare: A Strategy for Quality Assurance the Institute of
In its recent report
                                                                     lS


Medicine (10M) reviewed the evolving research on educational interventions involving
physicians. On the basis of this research , it suggested five elements that must be
  present if educational interventions are to have much effect in changig physician
  behavior. These elements seldom appear to be associated with PRO interventions.

  First , the physician must accept that he or she needs to change. The PROs reported
  to us that physicians often engage lawyers to respond to a PRO as soon as they
  receive a notice of a potential quality-of-care problem. In fact , one PRO offcial said
  the medical society in its State identified a particular law firm physicians use when
  contacted by a PRO. In reviewig the case fies for this PRO and others , we saw
  much contentious correspondence between the physicians , their lawyers , and the
  PROs , and few indications that the physicians accepted the PROs ' conclusions.

  The second element is that the content of the education must be specifc to the area
  needing change. PRO offcials often indicated that they could not fid courses that
  were suffciently responsive to a physician s particular educational need. Ths problem
  is exacerbated in rural areas where access to medical semiars         and conferences can be
  lited.
  The remainig three elements focus on a personal meeting with the physician.
  Physicians , reports the 10M, are likely to respond most positively to an educational
   intervention when it (1) is offered in a personal meeting, (2) is conducted one-to-one
   and (3) is with a trusted and respected colleague.

                                                      16 Although most PRO offcials
   reported believing that meetings are effective in changing physician behavior, fewer
   than one in five of the physicians in our sample had had an intervention that involved
   such a meeting. Moreover, those who did attend such a meeting often brought their
   lawyers and almost always found themselves confonting a number of PRO physicians
.' rather than a single , trusted colleague. That is not to suggest that the meetings had no
, educational value ,     only that according to the literature the setting did not appear to be
  conducive to providing the maxmum educational benefit.

  Th        PROs confront thee bas    constrin in seekig   to cany out efectie   edatinal
  inenns.




              They have limited information on which to base their educational interventions.

                      The PROs usually base their interventions on one incident of care in
                    one three-month period.

                      The PROs ' fies usually don t identify the physician s specialty,
                   , certification status , medical school , or other information about
                     credentials.

                      The PROs rarely know about medical board or hospital actions taken
                     against the physician.



                      The PROs cannot query the National Practitioner Data Bank about
                    specific physicians.
  The PROs tyically conduct a thorough inquiry in documenting a serious quality-of­
  care problem. However, the PROs act in a more restricted manner in determg
  what kid of educational. intervention to take once the problem is documented. Ths
  is in large part because the PRO physician advisors who decide on the intervention
  usually make their decision on the basis of one incident of care in one three month
  period, in accord with HCF A' s quarterly profiing requirement. At some PROs , they
  do not review their own data for previous quality-of-cae problems involvig a given
  physician. They are also unlkely to know if the State medical board, a hospital, or
  other health care entity has taken or is considerig taking action against the
  physicianP And Federal law stil does not allow the PROs access to the National
  Practitioner Data Bank, which would identif any adverse actions taken by medical
  boards or health care entities such as hospitals and any malpractice payments involving
  the physician.



         They perform oversight roles that inbit their capacity as educators.

  In their oversight roles , PROs review the medical practice of physicians , identify those
  physicians responsible for quality-of-care problems , and then impose certain corrective
  actions. They must do this in accord with due process safeguards and myrad formal
 requirements imposed by the Federal governent. Understandably, the interactions
 between the PRO offcials and these physicians often become adversarial, as the
 physicians express concerns about the accuracy of the PROs ' judgments and/or the
  implications for their medical practices.

   Amid such interactions , it is difficult for the PRO offcials and the physicians with
./ confrmed quality-of-care problems to relate to one another in an essentially
, educational sense.   The PROs impose a certain threat to the physicians , however
  much they might attempt to deemphasize it. This threat limits , but does not
  altogether preclude , their opportunity to serve as medical educators.

         They fid   that remedal medca education       progr are seldom avaable.
 Most PROs are unable to refer a physician with a serious quality-of-care problem to
 an educational program that offers an intensive and individualized response to the
 physician s needs. The limited availabilty of such programs , a number of PRO
 offcials report, signficantly   restricts what they can accomplish through their
 educational interventions.
.'




                           RECOMMENDATIONS

       The physicians we focused on in this report were found responsible for "medical

       mismanagement with signficant adverse effects on the patient. " The educational

       interventions we reviewed were imposed to help these physicians improve their

       medical management skills and avoid the need for corrective actions of a punitive

       nature. This educational   orientation is central to the purpose of the PRO program.

       Yet , as the fidings in this report indicate , the educational efforts of the PROs appear
       to fall well short of their potential. We urge HCFA to give major attention to
       correcting tJ:s deficiency. Toward that end, we offer seven recommendations directed
       to HCFA We also present one recommendation to the Public Health Servce.
       TI HETI CAR FIANCIG ADMISTTION
       Th   HCFA shoul ene tht         th PROs inte    tily edatinal      inenns in aU

       confi   Leel m caes.

       The PROs should be held accountable for carrng out the educational interventions
       currently mandated in all Level III cases unless , of course , the physician voluntariy
       surrenders his/her medical license. In our sample , 14 percent of the cases involved no
       such intervention at least six months after the PRO had confirmed a Level III quality-
       of-care problem.

     / Th   HCF A shoul is aregtin or, if necesary, seek lelatin mandtig th for
            confi              th PRO share case informtin wi th hoitls at whih
                              cases,
       aU           Leel

       th proble ocCUed Tht informtin shoul inlu th
       natie of th proble an th        type of
                                                                   id
                                                                 of th physi th
                                     edatina and oth inenns impoed by
       PRO.

                                  regtin or, if neesary, seek lelatin
       Th   HCF A shoul is a
       enourgig th PROs
       of edatina
                             to involve   th hols
                      inenns in aU Leel m cases.
                                                     in th   planng, condt, and    ases
                                                                          aOowig and



       Through their own quality assurance efforts, hospitals can and in some cases do play
       an important role in helping PROs achieve their educational objectives. The PROs , it
       would appear , could take much greater advantage of this complementary role. Yet
       for confidentiality and other reasons , some PROs are reluctant to inform hospitals
       about quality-of-care problems and any interventions directed to physicians, and even
       more so to involve them in the conduct of the educational efforts and in the ongoing
       assessment of these efforts. By carrng out the above recommendations , HCF A could
       help correct this situation.
 Th   HCFA shoul   int     th PROs to gie greate       attn to peona metigs as an
edatna inenn an to exlore ways of condg one-to-one megs betwee
physi wi confi Leel m quli-of-care prble and physin consnt.
In our sample , only 18 percent of the educational interventions involved a meeting
with PRO physicians. And even when a meeting was held, the educational value was
uncertain. A meeting tyically involved a number of PRO offcials , with an attorney
often accompanying the physician , therefore resemblig a hearg more than an
educational exchange. We urge that HCFA and the PROs examie ways of making
more effective use of one-to-one personal meetings as an educational tool and in so
doing take account of the research findings concerning how physicians learn.

 Th   HCFA shoul mate       tht before diectig    an   edatina inenn         to a
physi
prble th hae
contct
                    id
          ina Leel m cas th       PROs   ta in accoun al prir qu-of-care
                              concerg tht physi          dug th   lie of   th PRO

PRO physician advisors often lack suffcient information about a physician s practice
deficiencies to craft a well-suited educational intervention. Ths can be corrected by
obtainig more inormation from "outside " sources , such as State medical boards , but
also from the PRO itself. At a minimum , we believe that the PRO , in developing an
educational intervention for a physician , should review any prior quality problems , be
they Level I, II, or III, that the PRO itself has identified for that physician over the
term of the PRO contract. This would help identify if there is a pattern of medical
, practice problems that the PRO should address in its educational effort.

Th    HCFA shoul obtain and diemte           informtin on   th efectien of PRO
edatinal inenns.
Do these interventions result in changed physician behavior? What     tyes of
interventions are likely to be most effective, under what conditions and in what
combinations? Are medical education efforts sometimes relied upon to address
problems that in essence are unrelated to medical knowledge or practice skis? To
help answer such questions , HCF A should require that PROs prepare a wrtten
assessment of the effectiveness of each Level III educational intervention. It should
also support research efforts on the relative effectiveness of diferent educational
actions directed to physicians responsible for poor medical care. By doing so , it could
help the PROs identify and take advantage of the lessons learned from their
considerable experience in undertaking educational interventions.

 Th   HCFA shoul obtain and ditrute to aU th PROs th litig offocedlreml
edatin proms inlu         in the natinal regtr mainin by the Aman Medal
Asoctin.
The number of such programs is limited , but those that are available can be an
extremely helpful resource for physicians whose medical knowledge or skis       are
  deficient. The HCF A should assure that the PROs are fully aware of the programs
, that do exist and consider them when meeting with physicians to discuss appropriate
 educational activities. 

TH PUBUC        HETI SERVICE

    Puli Hea See, thugh th Area Healt Edatn               Ce    Pr ftg and/or

                          re                 in
 Th

th AgenJor Healt Ca Poli and Reseah, sho prvi              denstrn
    eslihm and
for th                  of meal edn                    prms tht see to ene
thcli
edtin.
       comptee of physi thug                             ases and rem
Individualized assessment and education programs, such as Ontario s Physician
Enhancement Program ,    can serve as an effective approach for addressing medical
practice deficiencies. Yet, with few such programs available in the United States
PROs seldom have the option of referrg a physician to one as part of an educational
intervention. The American Medical Association has encouraged State and local
medical societies to assist in the development of such programs. 20 The Public Health
Servce , through demonstration funding, can assist by using some of its demonstration
funds to help determne the tye of physician enhancement programs likely to be most
 effective.
  COMMENTS ON THE DRAFT REPORT

 Within the Department of Health and Human Servces, we received comments from
 the Health Cae Financing Administration (HCF A) and the Public Health Servce
 (PHS). In addition, we received comments from a number of private organiations.
 These included the American Association of Retired Persons (AA), the American
 Medical Peer Review Organition (AMRA), and the American Medical Association
 (AM). In appendix F, we present the full comments offered and our response to
 them.

 Our second and thid recommendations        calling for the PROs to share more
 inormation about Level III cases with hospitals and to involve hospitals in the
 plang and conduct of the educational interventions generated the most attention.
 The PHS   , AA   , and AMRA expressed support for such action. The HCFA,
 which the recommendation was directed , indicated it would seek guidance from its
 general counsel to determne what if any action could be taken.

 In view of the legal uncertainty and the vital importance of these recommendations to
 the future effectiveness of the PROs ' educational efforts in Level III cases , we have
 changed them so that they call for HCF A to issue regulations or, if necessary, seek
 legislation to foster closer PRO- hospital interactions in Level III cases.

  In our fifth recommendation , callig for PROs to take into account all prior quality-of­
  care problems before making an educational intervention , we made two changes to
  clari that we were referrg to Level III cases and to prior problems identified by a
" PRO durig the life of its contract with HCFA We agree with AMRA that the
 PROs should "maintain a capacity to profie quality-of-care problems by individual
 practitioner(s) over the term of a PRO contract."

 In response to the AM' s comment about its national registry on focused/remedial
 education programs , we added a recommendation urging HCF A to see that all PROs
 are kept informed about such programs. For some physicians , such programs can
 serve as a crucial educational resource.

 Finally, with respect to our recommendation callng for PHS to provide demonstration
 funding for such programs , we added the Area Health Education Centers Program as
 a potential source for such funding. This was in response to comments from PHS
 addressing the potential relevance of that program.
                            APPENDIX A

                           MEODOLOICAL NOTE

We reviewed all confirmed Level III quality-of-care problems involving physicians
identified by eight PROs and reported to HCF A for reviews completed between
January 1 and June 30, 1990. We selected the eight PROs by dividing all PROs into
three strata , according to their volume of confed Level III problems. We then
randomly selected 4 PROs from the high (20 or more problems) and 4 from the
medium (6- 19 problems) volume strata. Those 2 strata represent 30 PROs and 86
percent of all the confed Level III quality-of-care problems reported durig our
time frame. We excluded the PROs with fewer than six confrmed Level III qualty
problems due to the cost of including them and their lesser experience with
interventions.

We made site visits to six of the eight PROs , collecting our information by phone and
mail for the others. We reviewed the PROs ' records for each of the 131 physicians
identifed by those 8 PROs (see appendix B for a sample overvew). Those 131
physicians account for 22 percent of the confirmed Level III quality-of-care problems
identifed by the 30 PROs in those 2 strata , and 19 percent of the confrmed Level III
problems in all PROs.
Durig our review we recorded physicians ' names , a description of the quality-of-care
problem, the name of the hospital , and the interventions taken by the PROs. We also
recorded the generic quality screen failures for each case , as a way to group the
problems. Using a discussion guide , we went over the intervention process with each
PRO' s medical director. In some cases , the chief executive offcer, physician
reviewers , and the quality review director participated.

We collected the physician profile c4ta from the data bases and publications of the
American Medical Association and the American Osteopathic Association.

We used Chi-square comparison of proportions tests to compare the distribution of
the 131 physicians with non-Federal physicians in the 8 States by specialty, age
gender, and foreign medical graduate status.




                                         A ­

                                                       * *




                            APPENDIX 

                                SAMLE OVEVIW
        CONFIRMED LEVEL III                                                N USED
        QUALIT- OF CAR                                       CASES         FOR
        PROBLEMS REPORTED                              REVIEWED            MOST
           1/1/90-
 PRO    6/30/90
        TO HCFA,                   *TOTAL CASES
                                   REVIEWED
                                                       WIIN SCOPE
                                                       OF INSPECTION SES
                                                                           ANALY­



                                                                            6***

                                                                            10****



                                                                          ' 47****




/ 8



 TOTAL         161                 158                     135              131

  * Some of these PROs identifed c&ses   not reported to   HCF A.

 ** We omitted cases from our scope for the following reasons: 6 problems occurred
 in a setting other than inpatient , 4 problems involved the provider rather than the
 physician as the responsible party, and 13 problems were either overturned or reduced
 to a lesser severity level. 


 *** In this PRO , two physicians were each responsible for two quality-of-care
 problems , or cases , durig the sample time. To avoid double counting the physicians
 we omitted one case for each from our analysis.

 **** In each of these two PROs , one physician was responsible for two quality

 problems , or cases , during the sample time. To avoid double counting these

 physicians , we omitted one case each from our analysis.

                              APPENDIX C

                     SUMY OF PHYSICI                PROFl DATA

Followig are summary data of the 131      physicians identifed by 8   PROs as being
responsible for confied Level III quality-of-care problems that were reported to
HCFA for reviews completed between January 1 and June 30, 1990. Our sources for
this data include:

       The 8 PROs.

       American Medical Association American Medical Directory: Physicians in the
       United States. 32nd ed. , Division of Survey and Data Resources , Department of
       Physician Data Servces ,   1990.


       American Medical Association , Physician ProfIe Data , Division of Survey and
       Data Resources , Department of Physician and Data Servces , correspondence
       2/13/91 and 2/22/91.

       American Osteopathic Association Yearbook and Directory of Osteopathic
       Physicians. 1990 ed.

       Marquis Who s Who Directory of Medical Specialists , 24th ed. , Wilmette ,     IL
       1990.




                                           C - 1

                                           --




                SUMY OF PHYSICI           PROFl DATA

                                         FRQUECY        PERCE
GENER
 Male                                       110           98%
 Female
                                            112           100%
 Unkown
AGE (in 199)
 c:35

 35­

 45­

 55­

 65+

                                            130           100%
 Unkown
SPECITY
 General. and Family Practice                             28%
 Medical Specialties
 Surgica Specialties
 Osteopathy
                                                130       100%
 Unkown
CETICATION STATUS
 Certifed                                                 65%
 Not Certifed
 (excludes 11 osteopaths)                       120       100%

FOREIGN MEICAL GRAUATE
 Yes                                                      30%

 (excludes 11 osteopaths)                       117       100%
 Unkown




                                C - 2

                DETAI ON SPECITY CATEGORITION
 SPECITY CATEGORITION                  NUER OF PHYSICIS
                                       SEROUS QUAL -OF-CAR
                                       PROBLE
GEN PRACfCE
 General Practice
 Family Practice

MEICAL SPECITI
Internal Medicine
Cardiovascular Diseases
Medical Oncology

Nephrology

Pulmonary Diseases

Anesthesiology

Geriatrics

Hematology

Neurology

Pathology

Rheumatology


SURGICAL    SPECITI
 General Surgery
                                27*
 Orthopedic Surgery

 Urology
 Neurosurgery
 Thoracic Surgery

 Obstetrics and Gynecology
 Otolarygology
 Vascular Surgery




OSOPATH
                                                          130

SPECITY UNOWN
TOTAL                                                     131

lnc1udes three surgical residents




                                    C - 3

                             APPENDIX D

                           GENC QUAL SCRS

Below we provide HCFA' s defitions from the third Scope of Work for the inpatient
hospital generic quality screens. Following the definitions , we provide a summary of


                                 , 1990.
the screens failed by the 131 physicians the 8 PROs identifed as responsible for
confed Level III quality-of-care problems reported to HCF A for reviews completed
between January 1 and June 30




DEFONS OF TH INATI HOSPITAL GENC QUAL SCRS
1. Adequacy of Discharge Planning
      No documentation of discharge planning or appropriate follow-up care with
      consideration of physical , emotional , and mental status needs at time of
      discharge.

2. Medical   Stabilty of the Patient

              Blood pressure within 24 hours of discharge (systolic less than 85 or
              greater than 180; diastolic less than 50 or greater than 110).

              Temperature within 24 hours of discharge greater than 101 degrees
              Fahrenheit (38.3 Centigrade) oral, greater than 102 degrees Fahrenheit
              (38. 9 Centigrade) rec

              Pulse less than 50 (or 45 if the patient is on a beta blocker), or greater
              than 120 within 24 hours of   discharge.

              Abnormal diagnostic findings which are not addressed and resolved or
              where the record does not explain why they are not resolved.

               Intravenous fluids or drugs after 12 midnight on the day of discharge.

              Purulent or bloody drainage of wound or open area within 24 hours
               prior to discharge.





                                          D - 1

3. Deaths


             During or following any surgery performed during the       current admission.


             Following return to intensive care unit, coronary care or other special

             care unit within 24 hours of being transferred out.


             Other unexpected death.


4. Nosocomial   Infection

             Hospital-acquired infection.

5. Unscheduled Return to    Surgery

             Within the same admission for same condition as previous surgery or to
             correct operative problem.

6. Trauma Suffered in the Hospital
             Unplanned surgery which includes , but is not limited to , removal or
             repair of a normal organ or body part (i.e. , surgery not addressed
             specifcally in the operative consent)

             Fall

             Serious complications of anesthesia

             Any transfusion error or serious transfusion reaction

             Hospital-acquired decubitus ulcer and/or deterioration of existing
             decubitus

             Medication error or adverse drug reaction (1) with serious     potential for
             harm or (2) resulting in measures to correct

             Care or lack of care resulting in serious   or potentially serious
             complications

7. Optional Screen


             Medication or treatment changes (including discontinuation) within 24
             hours of discharge without adequate observation




                                          D-2
  SUMY OF QUAL-OF   CAR PROBLE PROFI DATA:
 NUER OF PHYSICIAS FAIG GENC QUAL SCRS
                FRQUECY           PERCE

  DISCHGE
PLAG SCR

     Fail

     Pass
             120
                       129           100%
   Unkown

   MEICAL

STABIL SCRS

     Fail
                            43%
     Pass

                       129           100%
   Unkown

DEATI SCRENS

     Fail
                           15%
     Pass
             109
                       129          100%
   Unknown

 NOSOMI

INCTON SCR

     Fail

     Pass
             123
                       129           100%
   Unkown

 UNSCHULD

  RE
SURGERY SCREN

     Fail

     Pass
              121
                        129          100%
   Unkown





                    D - 3

                  FRQUECY    PERCE
TRUM   SUF
 IN TH HOSPITAL


      Fail                      59%
      Pass                      41%
                     129       100%
    Unkown
  OPTONAL OR
   PROS' OWN
    SCRS
      Fail                     18%
      Pass            106
                      129      100%
    Unknown




                    D - 4

                            APPENDIX E

                SUMY OF INVEON PROFI                            DATA

Followig are summary data of the interventions the 8 PROs directed to the 131
physicians identified as responsible for confirmed Level III quality-of-care problems
that were reported to HCFA for reviews completed between January 1 and June 30
1990.




                                          E - 1

       SUMY OF QUAL INVEON PROFI   DATA



   INVEON
            FRQUECY   PERCE
NOTCATION
Imposed                 131        100%

EDUCATIONAL
INVEON
 Imposed                113          86%
Not Imposed
                         14%
                        131         100%


INSIF
REVIW
 Imposed                131         100%

OTH
INVEONS
 Imposed                           44%
 Not Imposed

                        131        100%

SHAG
UCESUR BODIE
 Considered                         39%
 Not Considered

 Shared
                        131        100%
SANCTON

 Considered                         53%
 Not Considered

 1st Notice Issued

 Sanctioned

                         131        100%




                        E-2
   SUMY OF EDUCATIONAL INVEON PROFI   DATA

  INVEON         FRQUECY        PERCE

 Imposed                          42%
Not Imposed

                    113           100%
PHONE CAl

 Imposed                          30%
Not Imposed

                    113           100%
COUREWORK
Imposed                               22%
Not Imposed

                    113           100%
MEG WI
PRO PHYSICIS
Imposed                               18%
Not Imposed

                    113           100%
SUGGESTE
REING
Imposed
Not Imposed
        110
                    113           100%
REHE
REIDENCY
Imposed
Not Imposed
        112
                    113           100%
METIG
WI HOSPITAL
PHYSICIS
Imposed                               22%
Not Imposed

                     113          100%




                   E-3
                                   APPENDIX
        EfAn          COMM            ON      TH DRA         REORT
                  OIG REPONSE TO                  TH COMM

In this appendix, we present in full the comments on the draft report   offered by the
Health Care Financing Admistration (HCFA), the Public Health Servce (PHS), the
American Association of Retired Persons (AA), the American Medical Peer
Review Association (AMRA), and the American Medical Association (AM).
each case, we also include our response to the comments.




                                           F ­

                                            &.
                                                                                     Health Care
             DEPARTME!\T or HEALTH               HVMAN SERVICES	                     Financing Administration


"."..a                                                                               Memorandum
             .NOV I 8 1991
  Date

  From	      Gai R. Wilensky,    Ph. D. 

             Adminstrator

  Subject	
             OIG Draft Report - "Educating Physicians Responsible for Poor Medical Cae: A

             Review of the Peer Review Organiztions ' Effort, " OEI-Ol-89- 0020


             Inpector General

             Ofce of the     Secretary




                 We have reviewed the subject draft report which assesses         the educational
             interventions the peer review        organitions (PROs) direct to physicians responsible
             for serious quality-of-care problems. The report found that the educational vaue
             PROs ' interventions is uncertain and that the PROs face basic constraints that liit
             the effectiveness of these interventions.

                 The report addresses six recommendations to HCF     Our comments on these
             recommendations, as well as general comments on the report are attached.

                 Thank you for the opportunty to review and comment on this report. Please
             advise us whether you agree with our position on the report s recommendations at
             your earliest convenience.


             Attachment




                                                           F ­

               Comments of the Health Cae Financig Administration
                        Draft Report. "Eucating Physician Responsible
               for Poor Medical Care: A Review of the Peer Revew
                      Organizations ' Effort. " OEI-Ol-89-O20


Recommendation

The HCF A  should ensure that the PROs intiate tiely educational interventions in
al   confed Level III cases, unless the physician surenders bi/her medica license.
 esponse

We concur with ths recommendation. We require peer review organtions
(PROs) to intiate interventions withi 30 days afer the close of the review quarer,
uness the error is so egregious that it warants imediate intervention. We
evaluate the performance of PROs using the Peer Review Organtion Monitorig
Protocol and Trackig System (PROMPTS). When we perform the PROMPTS
evaluations, we review to determe whether educational interventions are
implemented as directed. PROs are requied to submit correctie acton plan
which are monitored closely when PROMP identies deficiencies in PRO
implementation of educational efforts. In the nex PROMP review, we wi pul           a
focused sample of Level III caes to ensure that educationa interventions were
properly intiated.

Recommendation 2


The HCFA should mandate that for all confed        Level il  cases, the PRO share
case information with the   hospitals at which the problems occured. That
inormation should include the identity of the physician the nature of the problem,
and the tye of educational and other interventions imposed by the PRO.

Response

We wi confer with the Offce of the General Counel (OGC) in order to obtai
more specific guidance as to what inormation concernng educational interventions
can be shared with hospitals.




                                        F ­

Page 2




Recommendation 3


The HCF A
conduct of the educational  interventions.
            should encourage the PROs to involve the   hospitals in the   planng and


  esponse

As previously stated, we need to confer with OGe on the issue   of   sharg
inormation on educational interventions with hospitals in order to   determine
whether we can implement this recommendation. In addition, we believe that many
  spitals (e.g. , small hospitals) are not equipped to perform such fuctions.



Recommenqation 4


The HCF A should instruct the PROs to give greater attention to personal meetings
as an education intervention and to explore ways of conducting one-to-one meetings
between physicians with confmned Level III quality-of-cre problems and physician
consultants.

Response

We are currently revewing options for improvig our quality intervention plan and
wil consider   this recommendation in conjunction with other appropriate changes.

Recommendation 5


The HCF A    should mandate that before directing an education intervention to a
physician, the PROs take into account all prior quality-of-care problems they have
identifed concernng the physician.

Response

The PROs take prior history into account when decidig what intervention to take.
The scope of work for the fourth contracting cycle claries that the PRO is to take
into account prior history when deciding upon the appropriate intervention.




                                         F ­

Page 3




Recommendation 6


The HCFA should obtain and disemiate inormation on the effectiveness of PRO
education interventions.

Besponse

HCFA is commtted to a strong progr of education and inormation
dissemiation among the PROs and though the PROs to the communty. The
specifc recommendation to dissemiate inormation on the effeceness of PRO
educational interventions wi be reaed with the implementation of a program of
epidemiologic evaluation and oversight though the PROs. Under the scpe
work for the next round of contract with the PROs, there is signcat emphasis
on education and feedback to the heath    cae provders and practitioners on
pattern of practice   and the associated outcomes of cae.


Genera) Comments

           Page i - OIG' s background statement implies that the PROs ' two major
           functions are policing activties. We suggest th pargraph be rewrtten
           to emphasize that the priar responsibilty of the PROs is to ensure
           Medicare beneficiaries receive good quaty cae.

           Page 10 - OIG indicates that the PROs have lited inormation and that
           the PROs rarely know about medica board or hospita actons taen
           against physician. We agree that    th
                                                is tre. Although OIG wants the
           PROs to share inormation freely with the medica boards and hospita,
           there is no companion recommendation that these other entities share
           information with the PROs. In the futue, PRO accss to the National
           Practitioner Data Ban wi help in    thregard.




                                        F ­

                       OIG REPONSE TO HCFA             COMM
     We respond as follows to HCFA' s comments on each of the recommendations:

     Recmmendation 1: We welcome HCFA' s follow up to ensure that educational
     interventions are properly initiated.

     Recmmendation 2: In view of HCF A' s reservation about the legal basis of the
     recommendation as stated in the draft report , we have modified it to cal for the
     necessary regulatory or statutory changes. We urge that HCFA move quickly in
     carrg out this recommendation because it has a major bearig on the effectiveness
     of PRO educational interventions in Level III cases.

     In this context , we suggest that HCF A take into account that a close workig
     relationship with hospitals (and their own qualty assurance commttees) supports the
     continuous quality improvement principles which HCF A is embracing for the PRO
     program. By involvig the hospital in the intervention process and by keeping the
     hospital regularly informed of educational interventions taken against its physicians
     the PRO would be contributing to a more collegial process that involves more
     effective use of data concerning the quality of care.

     We also suggest that HCFA take note of the support for this recommendation
     expressed by the Public Health Servce , the American Association of Retired Persons
     and the American Medical Peer Review Association. The American Medical
.I   Association did not respond directly to the desirabilty of the recommendation , but did
, emphasize that     there should be strict liits to any educational activities undertaken
     directly by the PROs. Our recommendation is made in recogntion of such limits and
     of the major contributions that hospitals can make in assisting physicians found to
     have serious quality-of-care problems. Indeed , one of the PROs in our sample was
     working very closely with hospitals , just as we call for in the recommendations.

     Recmmendation 3: Our response concerng            HCF A' s
                                                             comments on the above
     recommendation also apply to this recommendation. Hospitals can and should be
     major participants in crafting and overseeing educational plans for physicians who
     have been responsible for serious quality-of-care problems. We urge HCFA and the
     PROs to move quickly in this direction.

     Recmmendation 4: We regret that HCFA did not offer a more definitive response
     to this recommendation. One- to-one meetings , as research findings indicate , can lead
     to more effective educational interventions. We urge HCFA to identify ways to
     incorporate such meetings into the educational process in Level III cases.

     Recmmendation 5: HCF A indicates that the scope of work for the fourth contract
                                   is to take into account prior history when deciding upon
                                 PRO
     cycle will clarify that the 

     an educational intervention. Such language moves in the direction we call for, but is


                                                F ­

not suffciently precise. We urge that HCFA follow the suggestion offered in
AMRA' s response to us and require that the PROs "maintain a capacity to profile
quality of care problems by individual practitioner(s) over the term of a PRO contract
and not just for consecutive quarters which is the mandate at present. " Such an
approach would help identif      any pattern of     quality problems and would allow for
educational interventions more appropriately tailored to a physician s needs.
(Accordingly, we have specifed in our recommendation that before fashioning
educational interventions in Level III cases , PROs should review all quality-of-care
problems they have identifed on those physicians durig the life of their PRO
contracts. )

Recmmendation 6: In response to this recommendation , HCF A references the
epidemiologic evaluation and oversight that wi be emphasized in future contracts with
PROs (using HCFA' s Uniorm Cliical Data Set). Ths future direction cited by
HCFA represents an important and potentially constructive redirection in the PRO
program. It does   not ,   however, respond to the point of our recommendation.

In our recommendation, as in the report as a whole , we make it clear that we are
focusing on physicians responsible for poor medical care-- that is , those physicians who
have confrmed Level III quality-of-care problems. Our recommendation urges HCF A
to determine the effectiveness of the educational interventions undertaken against
these physicians. What interventions work best for them? Under what circumstances?
Why? These are important questions to answer and should not be confused with
other important questions about how practice-related data can best be used to
improve the performance of most practicing physicians.




                                             F ­

i,                DEPARTMENT OF HEALTH & HUMA SERVICES	
                                                           ~~~        --     ..   - ..


                                                                            Puic He
     , .J l-
                    NOV '9   1991                                           Memorandum
        Date

        From	      Assistant Secretary for Health

        S\Jbje	    Office of Inspector General (OIG) Draft Report " Educating
                   Physicians Responsible for Poor Medical Care: A Review of the
                   Peer Review Organizations ' Efforts, " OEI-Ol-89-00020
                   Inspector General, OS


                   Attached are the Public Health Service comments on the subject
                   draft report. We concur with the intent of the
                   re commenda t    ion. Howeve r, we re commend tha t the recommenda t ion
                   be directed toward more appropriate organizations 8uch as the

                   Healch Resources and 
 ervices Admini8tration (HRSA), with
                   technical assistance from the Agency for Health Care Policy

                   and Research. or perhaps to medical organizations and

                   professional societies themselves. In our comments we discuss
                   some activities undertaken by HRSA in previous years that

                   could be responsive to the issues identified in this report.




                   Attachment




                                                    F ­

                                                 . .




       PUBLIC HEALTH SERVICE (PHS) COMMENTS ON THE OFFICE OF
     INSPECTOR GENERA (OIG) DRAT REPORT . EDUCATING PHYSICIANS
      RESPONSIBLE FOR POOR MEDICAL CAREI A REVIEW OF THE PEER
          REVIEW ORGANIZATIONS' EFFORTS. . OEI- OI- B9- 00020

  General Comments

  The draft report presents findings regarding the lack of

  consistency and perceived value of Peer Review Organization

  (PRO) educational interventions, and discusses the significant

  barriers undermining these efforts. The recommendations are

  designed, overall, to rationalize this system. We are

  particularly supportive of efforts to involve hospitals (or

  other appropriate facilities, such as nursing homes) in the

  planning of educational efforts.

  It is not clear, however, that intensified educational
  interventions by PROs will overcome the basic problems
  described in the report. Additional consideration needs to be
  given to ways to change the adversarial relationship between
  PROs and individual physicians, and to encourage more active
  invol vement of a range of medical peers and professional
  organizations in the education and discipline of colleagues.
  OIG Recommendation
  The Public Health Service, through the Agency for Health Care

  Policy and Research (AHCPR), should provide demonstration

  funding for the establishment and refinement of medical

  education programs that seek to enhance the clinical competence

  of physicians through individualized assessment and remedial

! education.


  PHS Comment

  We agree with the intent of this recommendation, but note that
  there are several problems with it as currently drafted. AHCPR
  has the authority to fund - demonstrations, but is not currently
  doing so, nor are specific demonstration funds included in the
  AHCPR budget . As part of its growing program to address issues
  related to quality assurance in health care, AHCPR hopes to
  fund research, including demonstrations, designed to determine
  the effectiveness of alternative programs for improving
  physician performance and reducing the incidence of substandard
  medical care. This is consistent with the agency' s statutory
  authority to focus on research and evaluation questions.
  An evaluation of the effects of personalized assessment and

. remedial education programs on improved physician performance
  would be eligible for consideration in such an effort.
  However, the development and establishment of such programs is
  not wi thin the purview of the AHCPR. The recommendation
 should therefore be directed toward more appropriate
 organizations, such as the Health Services and Resources
 Administration (HRSA), or perhaps to medical organizations and
 professional societies themselves. AHCPR could provide

 technical assistance to HRSA by reviewing methodologies and

 evaluating proposals for demonstration funding.

 HRSA' s Area Health Education Centers (AHEC) Program is
 authorized under section 781 (a)(1) and 781 (a)(2) of the
 Public Health Service Act. Under section 781 (a)(1), basic
 support in the form of cooperative agreements is provided to
 successful applicants (medical schools or their parent
 organizations) to carry out an AHEC Program in a region of' a
 State or in an entire State, over a ' 3- 9 year period. Under


 projects.
 section   7B1   (a)(2), grant support is provided to former
 reci pien ts of 7   1 (a) ( 1) funds to carry out 2-year AHEC Special
 Initiative projects, including innovative demonstration


 Quality assurance has been one of the funding priorities

 established for the AHEC Program and the AHEC Special

 Initiatives Program during competitive cycles held in previous
 years.   In Fiscal Year (FY) 1992, quality assurance was not
 included as a funding priority, since substance abuse was added
 to the other funding priority areas: geriatrics, HIV-AIDS, and

 infant mortality prevention. We will reconsider whether
 quali ty assurance should be reestablished as one of the funding
 priori ties for the AHEC Program and the AHEC Special
! Initiatives Program beginning in the FY 1993 competitive grant
 cycle.   This would encourage a range of quality assurance
 applications that would focus on physician effectiveness
 educational programs at a State or local level, and would be
 responsive to the needs and issues cited in the OIG draft
 report.
 The AHEC Program appropriation in FY 1991 was $19. 2 million,
 with 90 percent of the funds ($17. 3M) awarded to support 15
 ongoing AHEC programs and six new AHEC programs. Currently,
 to 10 percent of the annual AHEC Program appropriation may be
 used to support AHEC Special Initiatives    projects. InFY 1991,
 a total of approximately $1. 9M was awarded to support
 15 continuation and eight new Special Initiatives projects,
 some of which address quality assurance issues. The average
 award was $75, 000.
 TECHNICAL COMMENT

 The name of the Agency for Health Care Policy and Research
 should be corrected in the recommendation to the Public Health
 Service on pages iii and 13 of the report.




                                  F­
                     OIG REPONSE TO PHS       COMM

In response to PHS' comments , we have amended our recommendation to clari that
both the Agency for Health Care Policy and Research and the Area Health Education
Centers Program in the Bureau of Health Professions could serve as resources to
support and assess demonstration efforts cited. We have also made the techncal
correction noted.





                                       F ­

                                                                          .\..                                                  ==--




                         Brin lfin "   lifftimts Oft:l:pooimcr   and ltlldfrsl1ip to Sfn'/"   all   "mtratio",



September 17, 1991



Richard P.
              usserow
Inspector General
Department of Health and Human                                       Services
330 Independence Ave., S.
Washington, D.    20201       C.
Dear Mr. usserow:
I am responding to your letter to Horace Deets regarding the

draft report entitled " Educating Physicians Responsible for Poor

Medical Care: A Review of the Peer Review Organizations'

Efforts. The American Association of Retired Persons is very
pleased to submi t these comments and commends the authors of the

-report for their contribution to increased understanding of how

to improve a program of great importance to Medicare

beneficiaries.
The report provides empi rical data indicating that the quali
intervention plans pursued by the Peer Review Organizations
(PROs) are falling far short of thei r goals. A major conclusion
from the report is that, although PROs are effective in
identifying Level III problems, they do not have an effective and
consistent process for ameliorating deficiencies and certifying
the competency of problem physicians. The report is also
instructi ve in not only providing an inventory of the problems
that lead to Level III citations, but in recognizing th
frequently difficult environment in which remedies for such
ci tations are considered.
AARP continues to believe that a properly functioning peer review
system provides vi tal protection for Medicare beneficiaries.
Accordingly, every effort must be made to strengthen existing
mechanisms for intervention in cases of poor quality. We have
reviewed the draft report and find that, for the most part, we
are in agreement wi th its recommendations and findings.
Accordingly, the following comments address those areas where we
have addi tional suggestions.
Background               ( pg. 2)

We suggest that you reference the Office of the Inspector
General' s (OIG) earlier report on PRO sanctions so that readers
may be informed about the PROs' experience in exercising their
more puni tive options for addressing quali ty of care problems.
    \rm:nc.1n .\ssexi;1ton of Retired Persom         bOJ E Street.                  uhing:tnn. DC :!004Q               :!o

              Runen B,     1.l::wel1   PrmdmT                        F-          HorJ':c B. Dcct        EX((/IT:Y   DII' aror
.'




      Recommendations      ( pg 12 - 14)

       In its fi rst   three recommendations, the OIG calls        for:
               Ensuring timely educational interventions in all

      confirmed Level III      cases; 

               Mandating sharing of case information with the hospitals

      in which the problems occurred;

               Encouraging the PROs to involve the hospitals in the

      planning and conduct of the educational interventions.


      We strongly endorse these recommendations. Wi th respect to the
      second, we note that this sharing, given the PROs existing
      discretionary authority, would not constitute a significant
      change in the current confidentiali ty and disclosure framework
      established in     regulation. With respect to the         third,
                                                                  hospital
      quali ty assurance commi ttees play a cri tical role nationally in
      maintaining quali ty of care, yet the report indicates 88\ had no
      part in PRO educational      interventions. In light ofthe potential
      importance of hospi tals' involvement, the OIG in its final report
      also should recommend that:
                      o HcrA mandate PRO- hospi tal interaction wi th respect to both
       the planning and evaluation of interventions through changes in
       PRO regulations           and in hospi tals' Condi tions of Participation.
       In addi tion, PROs should be encouraged to reach out and involve
       medical schools, medical centers, and other appropriate
     ! institutions in their areas in the design, implementation, and
     . evaluation of corrective action plans, including innovative
       remedial education programs. In this connection, we note the
       report' s observation that lack of access , to medical seminars and

      problem.
       other appropriate remedial courses is particularly acute in many
       rural areas. Particular attention should be paid to this
      In its fourth recommendation, the OIG stresses the value of
      personal meetings as an educational intervention. It is our
      understanding that considerable research is underway with respect
      to strategies for changing physician practice patterns which may
      be relevant to this issue. We concur that HcrA and the PROs
      should take into account research findings on how physicians
      learn in evaluating the efficacy of personal meetings and other
      interventions.
      The fifth recommendation points up a serious deficiency
      identi fied in the report, namely the PROs' failure to              utili ze all
      available data affecting the judgment about a physician'
      performance. Accordingly, we strongly concur wi th the OIG'
      recommendation and additionally recommend that:
                Efforts by the PROs and HcrA to achieve PROs' access to


                                            F­
state medical licensure board information pertinent to

investigation of Level III cases should be accelerated. This

report again documents the reluctance of PROs and state boards to

communicate wi th each other in cases of 5e rious quali ty problems
the barriers to such information sharing should be evaluated.
        PROs should be given authori ty to query the National

Practitioner Data Bank about specific physicians.



                             t.
The OIG' s sixth recommendation, that HcrA obtain and disseminate

information on the effectiveness of PRO educational

interventions, has great meri
     In order to implement this
recommendation uni formly across PROs, we also recommend that:
     o PROs should be instructed to prepare and document reports
on the effectiveness of each Level III  intervention. These
reports would serve to communicate Important information to
physicians and their hospitals, as well contribute to the

development of a HcrA data base on the impact of PRO

interventions.
We appreciate the opportuni ty to review this important report and
to share our comments with you. If   you should have any
questions, please contact Mary Jo Gibson of the Division of
Legi slation and Public Policy at (202) 434- 3896.



   n -
   othe r
Dl rector
Division of Legislation and Public policy





                                 F ­

                   OIG REPONSE TO AA             COMMNT
In response to AAP' s comments , we have added a footnote referencing the prior
OIG report on PRO sanctions and have modified our third recommendation to call for
the PROs and HCF A to work together not only in planning and conducting
educational interventions , but also in asssing them.

With respect to AA' s additional recommendations: (1) we do not view it
appropriate to recommend that PRO-hospital interactions be included in hospitals
Medicare conditions of participation , given that our focus in this report has been on
the PROs rather than hospitals; (2) we have addressed in a prior report the need for
closer interactions between PROs and State medical boards (see " State Medical
Boards and Medical Discipline " OEI- 01- 89- 00560, August 1990); and (3) we agree
that PROs should be able to query the National Practitioner Data Bank and
understand that wi be the case once Section 5 of the Medicare and Medicaid
Protection. Act of 1987 is implemented.




                                          F ­

"". "".';
    ,-:- " ..




                         'L\mi'                                             AMERICAN MEDICAL PEER REVIEW ASSOCIATION
                                                                          . Washington , D. C.   20002   (202) 371-5610            M: (202) 371-8954
                             810 First Street. N. E.      . Suite 410 .                                                   .




OFICE"S                                           September 30, 1991
flESIDENT
WI I'..'" H Moner.' . Jr M 0
San FrlncllCO. Callto,nl8

VICE PRESIDENT
J Ol.,a 811Dv M 0
Alma 1."'''"
                                     Richard Kusserow
SECIIETAIIY
Dorl,a K WIII.ce M 0
                                                  Inpector General

Sot..'" P,,,. NO"" Cero"""
                       Deparent of Health and Human Servces
TlEASUIIEli
Gery 0        L- M.

                                                  HHS Cohen Buildig
80""1....1. Uln                                   Room 525(;
IMMEDIATE PAST ",ESIOENT
TIIO G DeM . M 0
                                                  330 Independence Avenue, S.
MII.au.....          WtIl,n .                     Washigton, DC 20201

DIRECTORS

De.1I lo 8M M D                                   Dear Mr. Kusserow:

LOI 1.";'''". c."tom.
AlCnaro E. 8"rn. M D
                                                  The American Medica Peer Review Assocation (AMRA) appreciates
                                                                                                            dr                                         the
AM ArOr. Moen'gl"

Oo'G E Harro M 0

Ptnl8vllle. Penn'fl".n'l
                                                  opportty to       respond to the prepublication         report entitled, "Educatig
                                                  Physician for Poor Medica Cae: A       Review   of the Peer Review Organtions
CI- 0 Jo M 

            1_1                                   Effort. " The draf has not been shared with the AMRA membership nor dicused
De.,G I K'";S''' tI 0                             by the AMRA Board of Directors. The followig comments, therefore, should be
Ea,"o" .. J8rs.
IIICflro P McLI"g""" . Jr .. M 0
                                                  viewed as     preliar  and not reflectve of AMRA Board policy at th tie.
811'''If'g         .m AIIDlf''
eol'G POIeFlon D C
                               AMRA is supportve of the report' s recommendations and believe adoption would
                                                  enhance the PRO' s effort to modi the behavior of individual practtioners.
DaIiIS. T...as

'_roCk 0 PeiFlo" M 0

51. LOu'"' 1."19""                                parcuar, we support tberecommendation            requg PROs to share inormation with
L,wr."ce J 5"'101': M C                           the hospitals about Level il      caes   attrbuted to physician. We would suggest going
                                                                            mandate that al        confed qualty
Proen.J.. AriZona

                                        MO.
                                                  one step fuher    and                                                       problems be shared with
Tnom.. J Snen.
Old                .....
 "0'"
          BrOOlowllle
                                 J'
                                                  hospital. We believe that hospita are legaly             responsible for the qualty of               cae
AMRI'C
II ....ne. Pllme
                                                  delivered in their intitutions and,            therefore, should be entitled to inormation
8otO" MISSIC",,"!!'
                                 Y E.. e C" S M
                                                  relating to   confed qualty problems identied              by   the PRO.
CEO SECTION
A'!. P AClI" Jr
De"..' COlor.GO
                                  We are also strongly supportve of the recommendation to encourage PROs to
.1""" C Cen"on
                                   involve hospital in the plang and conduct of educational interventions. We
Sail LI.e C :.. L;:ln

MEDICAL OIREC ::I:S SEC':ION
                                                  believe that this would greatly enbance the educational impact by PROs. In                   the past,
JaM C Pe"Flon ,,' M 0
Sum. wu,ungt:l
                                                  HCFA General Counel has taken the position that to share specifics of PRO
                                                  intervention with the facity would requie a waiver of the confdentialty proviions
PUBLIC O.IIEC'!CRS
No.ml tI LI"g P-
Mllw.                W'ICOr.I,r:
                                  eMS t'          by the afected physician.

                                                  The recommendation that PROs be mandated to tae into account al previous
Cero,,, LIOe

toOllYWOOO FIOfiCl.

Vlt. Os '.nCl.'
Atl."tl Geo' g I
                                                  qualty of cae probJems when diectg an educational intervention for a physician
SPEA"E" OF T"'E "OL:SE
                                                  makes good sense. HCFA should consider requig PROs to maitain a capacity
f:rp:," C. C
JJ. .",aJ-e-
                ,"''' t-' D
                      i/IIC:"
                                                  to profie qualty of care problems by individual practtioner over the term of a PRO
v'CE S'EAKE" O' T--E "'O.;SE

                                                  contract and not just for consecutive quarers which is tbe mandate at present.
   If.f' '" Ce::' ,o 

             II;   ::" t.e ."..0



-='f':'                 I! ;'.a.!J :"'..
                                                  F­
  I":'

$.. .(,(

Richard Kusserow

September 30, 1991
Page two


Once agai    than you   for tbe opportty to comment on th draf report AMRA looks
forward to receivig   the fial report
                                
     for distrbution to the AMRA membership.

Sincerely,



Andrew Webber
Executive Vice President

AW/aw




                                        F ­

                OIG REPONSE TO AMRA              COMM
We agree with AMRA' s point that all quality problems be shared with hospitals and
suggest that HCFA consider it. However, given our study s focus on Level III cases
and educational interventions , we must limit our formal recommendations accordingly.

We also agree with AMRA' s point about HCFA requirg the PROs to maintain a
capacity to profie quality-of-care problems by an , individual practitioner over the term
of a PRO contract. We have reinforced this point in our response to HCFA and have
amended the recommendation to clarify that this profiling requirement should apply
for the life of a PRO contract.




                                         F ­

American Medical Association
Physicians dedicated to the health of America



James S. Todd. MD               515 North State Stret          312464- 500

Executive Vice Preident         Chicago. Illois 60610          312 464- 4184 Fax





September 9, 1991




Richard P. Kusserow
Office of Inspector General
Department of Heal th and Human Services
200 Independence Avenue, SW
Washington, DC 20201
RE: Draft Report - " Educat ing Phys icians
    Responsible For Poor Medical Care:
    A Review of the Peer Review Organizat ions I
       Efforts            tJ/-f'i-          1J.;6
Dear Mr. Kusserow:


The American Medical Association (AM) welcomes the opportuni ty to
comment on the draft report, " Educat ing Phys icians Responsible For Poor
Medical Care: A Review of the Peer Review Organizat ions I Efforts.

The AM commends  the Office of Inspector General for undertaking the
examination of current educational activities of PROs. We support the
goal of the peer review organizat ion (PRO) program, to ensure qual i ty
medical care for all Medicare beneficiaries, and we believe it can best
be achieved by di rect ing current PRO resources toward educat ional and
quality assurance endeavors rather than punitive interventions.

The Omnibus Budget Reconci I iat ion Actof 1990 (OBRA ' 90) provides that
before a PRO submi 15 its report and recommendations to the Secretary of
Heal th and Human Services pursuant to the Qual i ty Intervent ion Plan of
the Heal th Care Financing Admini strat ion (HCFA),         may provide the         the PR
physician or entity being scrutinized an opportunity to enter into and
complete a corrective action plan (CAP). The CA may include remedial

education, if appropriate. In our view , however, PROs should not

uni laterally develop or be involved in the actual provision of an

educational CA, nor should they be involved directly in a system for

coordinating the educational activity.

PRO ent i ties do not possess the necessary educational resources, facul
or expert       i se to engage in such an endeavor. Any
                                                 such act ions by the PROs
would also constitute a serious conflict of interest, especially if
undertaken as a revenue generating activity. We believe, moreover, that
PROs must not mandate or require the use of any specific educational
program or resource by physicians designated through the problem
ident if icat ion process. Ins tead, the PRO should recognize the resources
already available within the community and rely on those institutions to
 provide educat ional programs and remediat ion.
                                                        F ­

                                      - 2 ­




The following analysis of the   recommendations set forth in the draft

                            t s views on appropriate PRO act ivi ties to
report wi 11 present the AM
correct deficiencies in technique or pract ice that affect the
                                                                  qual i ty   


medical services rendered.
    Recommendation 1 - The Health Care      Finacing
                                                 Administration should
    ensure that the PRs  initiate ti.ely educational interventions in all
    confirmed Level III cases. unless the physician surrenders hislher
    .edical license.
The AM believes that the    recommendation should be modified by deleting
the phrase which states, "  unless  the physician surrenders his/her medical
license. Such a recommendation appears contrary to the intent of the
draft report which attempts " to assess the educational interventions that
the Medicare- funded Peer Review Organizat ions     (PRs) direct to   phys icians
responsible for serious quality of care problems.
       The   phrase in
quest ion, however, impl ies that  PROs may. impose  a puni t ive or coercive

measure. rather than an educat ional strategy, to induce a physician to
surrender his/her medical icense. . Deletion of the phrase " unless the
physician surrenders his/her medical license " would eliminate the,
impl ication that a physician may be encouraged to surrender his or her
  icense. and a PRO would not be required to 
  ini tiate an educational
 intervention (based on timeliness) in situations where a license 

surrendered.
    Recommendat ion 2 - The Heal th Care Financing Administration should
    .andate that for all confirmed Level III cases, the        PR
                                                              share case
     infornt ion wi th the hospi tals at wbich the problems occurred.
                                                                            Tht
     information should include the identity of tbe physician. the nature
     of the problem . and the type of educational and other interventions
     imposed by the PR.

PROs should institute an approach to the notification process in sharing
confirmed Level III information with hospitals that will maximize the
educat ional impact of the program. The AM has urged HCFA to modi
current regulat ions so that:, (1) in regard to confirmed qua Ii ty problems
which have been finally adjuaicated by the PRO Qual i
 ty Assurance
Committee, the PRO is required to notify both the physician and president
of the hospital medical staff in all such cases; and (2) the PRO is
requi red to implement a mechanism to veri fy receipt of the PRO'
                                                                     s not ice
of both potential and confirmed quality problems by the       physician.  We

have further recommended amendments to      the  PRO  statute: (1) to require

  at when the PRO review goes beyond the generic screen for intensified
review , the phys ician mus t be not i fied wi thin 48 hours of the exact
reason for said review; and (2) to repeal the existing prohibi tion on the
 release (to a PRO proposed sanctioned physician) of documents or other

 information produced by a PRO in connection with its deliberations in

 making qual i ty determinat ions. The AM al so recommends that HCFA
 regulations be revised to permit notification to residency training
 programs of a Quality Intervention Plan letter of inquiry received by a
 res ident during part icipat ion   in an accredi ted res idency program.

 Prior to confirmation of a quality problem by the PRO, notification

 should occur only at the request of/or with the consent of the affected


                                       F­
                                    - 3 ­




phys ician. The AM opposes di sclosure of unconfirmed    PR
                                                          qual i ty
inquiries as this would unfairly impinge on a physician s right to
privacy and confidentiality and also deleteriously affect the physician
profess ional reputat ion.
    Recommendat ion 3 - The Heal th Care   Finacing Adainistration should
    encourage the PRs to  involve the hospitals in the planing and
    conduct of the educational interventions.

The recommendat ion to encourage  PRs to   involve hospi tal s in the planning
and conduct of the educat  ional intervent ions requires further
specification. It is essential that a CA apply only to the physician
ident i fied as the source of the confirmed qual i ty problem. Evidence
suggests that, in certain    instances, a PR  has required all or a     rge
portion of a facility s active medical or other professional staff to be
involved in a focused CA which should have been more precisely directed
to the ident i fied phys ician. The AM stands opposed to CAs of an
intrusive and overly expansive nature. Also, in recognizing hospital
involvement in the planing and conduct of educational      interventions, it
should be clarified that such involvement is to include the organized
medical staff and not jus t the hospi tal administrat ion.
    Recommendat ion 4 - The HeaUhCare Financing Adainistration should
    instruct the PRs to give greater attention to personal .eetings as
    an educat ional intervent ion and to explore ways of conducting
    one- to-one  .eetings between physicians with confir.ed Level III
                                                                  

    qual i ty-of-care problems and physician consul tants.

The AM supports the concept   of increased personal meetings between
physicians and physician consultants as a constructive educational tool.
Physicians have expressed repea1 d frustrat ions at their inabi 1 i ty to
contact and meet wi th a pbys ician representat ive of a PRO.
Implementation of Recommendation 4 would be of value in mitigating 
   these
concerns.
Consistent with our view that PROs should limit their activities in
developing CAPs to the idendfication of confirmed problems and
notification  thereof, as well as monitoring compliance with a CA, we
bel ieve that the PRO should not uni laterally be involved in determining
an educational CAP, providing such education or requiring the use of a
specific educational program. The PRO, therefore, should not participate
in any form of instructional arrangement between the cited practitioner
and an independent educational program selected to remediate the 
 problem.

    Recommendat ion 5 - The Heal th Care Financing Administration should
    aadate that before directing an educational intervention to a
    physician, the PRs take into account all prior qulity-of-care
    problems they have ident i fied concerning that physician.
When the PRO considers prior quality of care problems, the AM believes
that it would be useful to evaluate only those cases that relate directly
to the confirmed quality problem at hand. An arbitrary review of all



                                    F ­

                                        - 4 ­



previous unre lated   qual   i ty quest ions would
                                           not serve to correct technical
deficiencies in technique or procedure that have been revealed by the
current Level III confirmed quality problem under scrutiny.

      Recommendation 6 - The Health Care Financing Adainistration should

      obtain and disse.inate inforaation on the effectiveness of 

      educational interventions.
PROs generally lack the expertise, resources and faculty to provide the
necessary assessment, educat ion and evaluat ion of those educat ional
intervent ions undertaken by phys icians ident i fied in the Qual   i ty
Intervention Plan. It may be appropriate, however, to monitor the
referral of physicians to appropriate educational programs or
institutions, as well as the evaluation by the relevant educational
program of the phys ician ' s progress.
In addition, we believe that the PRO program should be redesigned to
provide rout ine feedback to the medical communi ty about its review
findings. PROs should be required to distribute aggregate information on
a regular basis to state medical societies. Provision of such
educat ional feedback is essent ial to improvi g qual i ty of care for the
Medicare population and others. Sharing of aggregated information at the

state level would enable physician organizations to identify specific

areas for which educat ional material s or programs could be developed or

provided.
      Recommendation 7 - The Public Health Service, through the Agen
 for
      Heal th Care Pol i and Research, should provide demonstration funding
      for the establishaent and refinement of .edical education prograas

      that seek to enhce   the clinical coapetence of physicians through
      individualized assess.ents and remedial education.


The AM supports funding for demonstration  grants to implement the intent
of Recommendation 7. Such grants should be awarded to educational
institutions with the ability to provide individualized physician
assessment, necessary education, and evaluation. PROs, however, should
not   be the recipients of sucID     educat ional    grants.
Wi th respect to the comment in the draft report indicating few avai         lable
educat ional programs for      address ing medical pract ice deficiencies,
wish to point out areas where substantial progress has been made in the

last two years. The AM has compi led and maintains a national registry
of focused/remedial educat ion programs. A task force comprised of
cont inuing medical educat ion providers, I icens ing bodies,
representatives and others has been assembled to meet on a regular basis
to assess progress in this area. To date, the national registry has not
been contacted by a PRO or by HCFA regarding informat ion about a speci fic
medical educat ion program.

In conclusion, the AM applauds your effort  to assess educational
interventions of PROs as articulated in the draft report. We believe
that educat ional CAPs which minimize undue disrupt ion of the phys ician ' s
                                   - s ­




practice, incorporate   principles of fairness and due process, and serve
                                                                      will
to truly provide an educational approach to quality intervention 

                                     ients.  We would be   pleased  to work

bes t serve the interests of our pat
wi th HCFA and others to formulate principles and guide 

                                                         I  ines to improve
the effect i veness of the PRO program in this area and thereby enhance the
qual i ty of medical care provided to Medicare beneficiaries.


Sincerely,
         ,E.
                     d-ml)
James S. Todd, MD


JST:hl




                                    F ­

                 OIG REPONSE TO AM              COMMNT

We agree with the AM that the PROs ' own role in conducting educational activities
should be limited. It is for that reason that we recommend that HCF A involve
hospitals more in the educational activities and that PHS provide demonstration
funding for medical education programs that seek to enhance the clinical competence
of physicians through individualied assessments and remedial education.

With respect to the AM' s comments on each of our seven recommendations , we
respond as follows:

Recmmendation 1: In accord with the AM' s suggestion, we omitted the phrase
 unless the physician surrenders his/her medical license" from the recommendation.
We moved it to a less promient place in the supporting text , not to imply that the
PROs "may impose a punitive or coercive measure, " but simply to clarify that an
educational intervention is obviously unnecessary in cases where physicians of their
own accord have chosen to surrender their license.

Recmmendation 2: The AM presents its position on a number of issues concerning
the PRO review process , but does not comment directly on our recommendation
mandating that information on confrmed Level III cases be shared with the hospitals.
It does urge that HCF A take an approach in sharig Level III inormation with
hospitals that "will maxmize the educational impact of the program. " Our
recommendation , if implemented , would faciltate the fulfent of that objective.

Recmmendation 3: In accord with the AM' s suggestion , we have amended the
recommendation to specify that it applies to Level III cases. As to which parties
should be involved in representing the hospital, we would regard a hospital quality
assurance committee as being the focal point, but look to HCF A to provide the
appropriate specification. 


Recmmendation 4: We share the AM' s concern that the process of developing an
educational intervention be a collaborative one. However, given the   lited nature of
the educational actions that we have found PROs take in Level III cases , we would
not lessen the PRO' s authority to determine an appropriate educational intervention
or to obtain feedback concerning that intervention.

Recmmendation 5: In callng for the PROs to consider prior quality-of-care
problems involving a physician with a confirmed Level III problem, we are not at all
callng for " an arbitrary review of all previous unrelated quality questions." To the
contrary, we are urgig the PROs to have before them relevant information
concerning a physician s -performance - information that can help them craft an
educational intervention suited to a physician s particular needs. Such information
could reveal a certain pattern of problems that could be quite helpful to the PROs
and eventually to the physician. This approach is in accord with the AM' s desire


                                         F ­

that the PROs maxmize their educational     impact. Accordingly, we urge the   AM
reconsider its position on this recommendation.

Recmmendation 6: We recognze that the PROs lack resources or expertise to
conduct in- depth assessments of their educational interventions in Level III cases. It is
for that reason that we urge HCF A to address the issue directly by supporting
research efforts and identifng ways of obtaining and dissemiating information on
this vital matter. Ths tye of information is important in its own right, and should not
be confused with information on the effects of more generalized effort    to disseminate
practice-related information to the medical community.

Recmmendation 7: To clarify, we do not urge that the PROs be the recipients of
demonstration funding for the establishment and refiement of medical education
programs. Rather, our intent here is to increase the availabilty of signcant
educational vehicles available both to PROs and physicians. Finally, in accord with the
information provided by the  AM     we have added a recommendation calling for
HCFA to obtain and distribute to all the PROs information about the
focused/remedial education programs included in the AM' s national registry.




                                          F ­

                       APPENDIX G

                                 ENDNOTE


The PROs must also total the weighted severity scores for each institutional
provider identifed as having one or more quality-of-care problems. We have
excluded such proviqers , which, according to HCF A, account for about 20
percent of all confrmed quality-of-care problems , from the scope of this study.
The weighted severity score triggers specific interventions which the PRO must
impose. At a minium , HCF A requires the PROs to use the followig
interventions at the noted weighted triggers:

       Intervention                  Weighted Trigger

       Notification

       Education

       Intensified Review

       Other Interventions
       Consider Coordinating with

           Licensing Bodies
       Consider Recommending
           Sanction

Because the PROs must apply these interventions in a cumulative manner, a
physician responsible for a confrmed Level III quality-of-care problem , which
has a weight of 25 ,   would be subject to each intervention.

In an October 1988 report entitled "The Utiltion and Quality Control Peer
Review Organition (PRO) Program: Sanction Activities " (OAI- 01- 88- 00571),
we focused on the PROs ' sanction activities in some detail. One of our findings
cited in that report was that conflct between the PROs ' concurrent education
and sanction roles appeared to undermine the effectiveness of the sanction
process.

Physician specialty does not indicate board certification in this context. Rather
it is the specialty reported by the physician to the American Medical
Association which accounts for the greatest number of professional hours.

Non-Federal physicians are those not employed by the Federal Governent
i.e., the Ary, Navy, Air Force, Department of Veterans ' Afairs , the Public
Health Servce , and other federally funded agencies.



                                      G­
      Chi-square = 14. 5, dJ. = 3, and p c: . 005.
      Chi-square = 55.4 ,   dJ. = 4, and p c: . 005.

      Excluding osteopaths.

      By additional , we mean other than the confirmed Level III quality-of-care
      problem reviewed in our sample.

10.   To describe the serious quality-of-care problems, we recorded the generic
      quality screen failures for each. Generic quality screens are criteria applied to
      the medical records for identifyg events that could indicate poor quality of
      care. We found that the screen failures clustered in 2 of the 20 screens HCFA
      requires the PROs to apply: (1) care or lack of care resulting in serious or
      potentially serious complications, and (2) abnormal diagnostic fidings which
      are not addressed and resolved or where the record does not explain why they
      are not resolved. See appendix D for more information on generic quality
      screens.

11.   The intensified reviews ranged from the next 10 cases with a particular
      diagnosis or procedure to 100 percent of all cases for a three-month period.
      many cases , the PRO kept a physician on intensifed review for three months
      following the ,completion of the educational intervention.

12.   According to this PRO , its practice of retrospective reviews prior to imposing
      an educational intervention has since changed, and interventions will now be
      imposed within 30 days followig notifcation.
13.   At that time ,   imposing an educational intervention could undermne the
      sanction recommendation by indicating the physician was willing and able to
      change. An amendment in the 1990                Omnibus Budget Reconcilation Act
      stipulates that a physician s failure to comply with a PRO' s educational
      interventions can be considered evidence of his or her unwiingness and
      inabilty to change , thereby not interfering with the sanction recommendation.
14.   PRO officials tyically consider a quality-of-care problem resolved when the
      intensified review revealed no further problems in the quarter following the
      interventions.

15.   Institute of Medicine Medicare: A Strategy for Quality Assurance         Vol. 1
      (Washington , D. : National Academy Press , 1990).

16.   All in   Medicare: A Strategy   for   Quality Assurance:
                                                                  F. Davidoff, R. Goodspeed
      and J. Clive; " Changing Test Orderig Behavior: A Randomized Controlled
      Trial Comparing Probabilstic Reasoning with Cost- Containment Education
      Medical Care    27 (1989): 45- 58; J. M. Eisenberg, Doctor s Decision and the Cost
      of Medical Care    (An Arbor, Mich. : Health Administration Press , 1986); K.



                                                 G ­

                     , "




       Lohr, J. D. Winkler, and R. H. Brook                Peer Review and Technology Assessment in
       Medicine,           2820- 0TA (Santa Monica, Calif. :        RAD Corporation, 1981); S.
       Schroeder Strategies for Reducing Medical Costs by Changing Physicians
       Behavior International Journal of Technology Assessment in Health                Care


       (1987): 39-50. 16.

17.    Office of Inspector General Medical Licensure and Discipline: An Overview
       June 1986 , and Offce of Inspector General State Medical Boards and Medical
       Discipline,August 1990.
18.	   The National Practitioner Data Bank operates under Title IV of the Health
       Care Quality Improvement Act of 1986 (PL 99- 660).
19.	   Ths conflct has existed from the          begig
                                                  of the PRO program and its
       predecessor, the Professional Standards Review Organization program. See
       Medicare: A Strategy for Quality          pp. 145- 147 , op. cit.
                                              Assurance,




20.	   American Medical AssoCiation Report of the Council on Medical Education:
       Focused Continuing Medical Education Programs for Enhanced Clinical
       Competence , (1- 89).




                                                   G ­

